   AUDIT OF THE OFFICE ON VIOLENCE 

AGAINST WOMEN GRANTS AWARDED TO THE 

 WYOMING COALITION AGAINST DOMESTIC

     VIOLENCE AND SEXUAL ASSAULT

          LARAMIE, WYOMING


       U.S. Department of Justice

     Office of the Inspector General

              Audit Division



      Audit Report GR-60-12-017

             August 2012

  AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

    GRANTS AWARDED TO THE WYOMING COALITION

  AGAINST DOMESTIC VIOLENCE AND SEXUAL ASSAULT

                 LARAMIE, WYOMING


                          EXECUTIVE SUMMARY


       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of seven grants totaling $7,119,055
awarded by the Office on Violence Against Women (OVW) to the Wyoming
Coalition Against Domestic Violence and Sexual Assault (WCADVSA), as
shown in Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO THE WYOMING COALITION 

           AGAINST DOMESTIC VIOLENCE AND SEXUAL ASSAULT

                                        PROJECT        PROJECT
   AWARD NUMBER        AWARD DATE      START DATE     END DATE        AMOUNT
 2004-WL-AX-0068        09/13/04        07/01/04      03/31/10      $ 1,939,122
 2005-WH-AX-0062        09/12/05        09/01/05      12/31/11          700,000
 2005-WR-AX-0029        07/29/05        08/01/05      11/30/11        2,300,000
 2007-MU-AX-0006        09/17/07        09/01/07      09/30/10          536,055
 2009-EU-S6-0032        07/23/09        05/01/09      09/30/11          156,250
 2009-WL-AX-0032        09/25/09        10/01/09      09/30/13        1,060,000
 2010-MU-AX-0006        09/22/10        09/01/10      09/30/12          427,628
                                                         Total:     $7,119,055
Source: The Office of Justice Programs’ (OJP) Grant Management System (GMS)

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women, and administer justice for and strengthen services to victims.
Currently, the OVW administers three formula-based and 18 discretionary
grant programs, established under the Violence Against Women Act (VAWA)
and subsequent legislation.

      The OVW’s discretionary grant programs work to support victims and
hold perpetrators accountable through promoting a coordinated community
response. Funding is provided to local, state, and tribal governments;
courts; non-profit-organizations; community-based organizations; secondary
schools; institutions of higher education; and state and tribal coalitions. Our
audit includes seven discretionary grants made to the WCADVSA, a
non-profit state coalition.

       The WCADVSA was incorporated as a non-profit in 1987, and works to
provide a state-level voice for local programs, and to strengthen and
energize those programs by providing resources, training, and technical
assistance to ensure that quality public education and services are available
to all victims of domestic violence and sexual assault in Wyoming. The
WCADVSA works in association with 24 member programs, each of which
provides services to victims in their county. The WCADVSA provides
services which include, but are not limited to, the provision of reduced-fee
and pro-bono legal services to victims, the establishment of new graduate
level course material at the University of Wyoming, transitional housing and
emergency assistance for victims, technology upgrades, and training and
technical assistance.

Our Audit Approach

      The purpose of the audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants. The objective of the audit was to review performance in the
following areas: (1) internal control environment, (2) drawdowns, (3) grant
expenditures, including personnel costs, (4) budget management and
control, (5) property management, (6) program income, (7) financial and
progress reports, (8) grant requirements, (9) program performance and
accomplishments, and (10) monitoring of subgrantees and contractors. We
determined that matching and indirect costs were not applicable to this
audit. We tested compliance with what we consider to be the most
important conditions of the grants. Unless otherwise stated in this report,
the criteria we audit against are contained in the OJP Financial Guide 1 and
the award documents.




      1
          In April 2012, the Office on Violence Against Women issued the 2012 OVW
Financial Grants Management Guide. Though the grants in this audit were bound to the
criteria held in the OJP Financial Guide, we note that any recommendations implemented
should correspond to the newly issued OVW financial guide as applicable.

                                            ii
     We examined the WCADVSA’s accounting records, financial and
progress reports, and operating policies and procedures and found:

  •	 all accounting system users shared one password to access the
     system. This deficiency was corrected during the course of this audit;

  •	 the WCADVSA does not have a policy in place to monitor subrecipients
     receiving grant funds;

  •	 drawdowns were properly deposited, and were generally either equal
     to or cumulatively less than the actual expenditures per WCADVSA’s
     accounting records;

  •	 $817,901 in unsupported personnel costs for Grant Numbers
     2004-WL-AX-0068, 2005-WH-AX-0062, 2005-WR-AX-0029 and
     2007-WR-AX-0006;

  •	 $250,052 in unsupported fringe benefit costs for Grant Numbers
     2004-WL-AX-0068, 2005-WH-AX-0062, 2005-WR-AX-0029 and
     2007-WR-AX-0006;

  •	 $570 in unallowable direct costs for Grant Numbers 2004-WL-AX-0068
     and 2005-WR-AX-0029, which included floral arrangements and lawn
     care;

  •	 $14,108 in unsupported direct costs for Grant Number
     2005-WH-AX-0062, which consisted of transitional housing assistance
     payments made to a member program;

  •	 budget management was properly tracked and recorded, and budget
     modifications had been approved by the OVW;

  •	 the Federal Financial Reports (FFR) reviewed were generally submitted
     in a timely manner. However, we found that FFRs were not
     consistently accurate;

  •	 the Progress Reports reviewed were generally submitted in a timely
     manner. However, there is no system in place to ensure that goals
     funded by more than one award are identified separately on each
     award’s progress report;

  •	 no indication that the goals and objectives of the grants awarded to
     WCADVSA will not be achieved; and


                                    iii
  •	 grants that had reached their end date had been appropriately closed,
     or were in the process of being closed.

      This report contains eight findings and seven recommendations, which
are detailed in the Findings and Recommendations section of the report.
Our audit objectives, scope, and methodology are discussed in Appendix I.




                                    iv
                                    Table of Contents


INTRODUCTION ................................................................................ 1

  Background.......................................................................................1

  Our Audit Approach............................................................................3

FINDINGS AND RECOMMENDATIONS................................................ 5

 Prior Audits .......................................................................................5

 Internal Control Environment ..............................................................7

 Drawdowns .......................................................................................7

 Grant Expenditures ............................................................................8

 Budget Management and Control ....................................................... 10

 Grant Reporting............................................................................... 11

   Financial Reporting........................................................................ 11

   Categorical Assistance Progress Reports .......................................... 13

   Quarterly Recovery Act Reports ...................................................... 15

 Program Performance and Accomplishments ....................................... 16

 Closeout Activity.............................................................................. 18

 Conclusion ...................................................................................... 19

 Recommendations ........................................................................... 20

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 21

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ............. 23

APPENDIX III: WYOMING COALITION AGAINST DOMESTIC

    VIOLENCE AND SEXUAL ASSAULT RESPONSE TO DRAFT

    AUDIT REPORT ....................................................................... 24

APPENDIX IV: OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE 

    TO DRAFT AUDIT REPORT ...................................................... 29

APPENDIX V: OIG ANALYSIS AND SUMMARY OF ACTIONS

    NECESSARY TO CLOSE THE REPORT ....................................... 31

   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN

     GRANTS AWARDED TO THE WYOMING COALITION

   AGAINST DOMESTIC VIOLENCE AND SEXUAL ASSAULT

                  LARAMIE, WYOMING


                                INTRODUCTION


       The U.S. Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of seven grants totaling $7,119,055
awarded by the Office on Violence Against Women (OVW) to the Wyoming
Coalition Against Domestic Violence and Sexual Assault (WCADVSA), as
shown in Exhibit 1.

EXHIBIT 1: GRANTS AWARDED TO THE WYOMING COALITION
           AGAINST DOMESTIC VIOLENCE AND SEXUAL ASSAULT
                                                     PROJECT       PROJECT
 AWARD NUMBER         PROGRAM          AWARD DATE   START DATE    END DATE      AMOUNT
                Legal Assistance to
2004-WL-AX-0068 Victims                09/13/2004   07/01/2004   03/31/2010    $1,939,122
2005-WH-AX-0062 Transitional Housing   09/12/2005   09/01/2005   12/31/2011       700,000
2005-WR-AX-0029 Rural Grants           07/29/2005   08/01/2005   11/30/2011     2,300,000
2007-MU-AX-0006 State Coalitions       09/17/2007   09/01/2007   09/30/2010       536,055
                Recovery Act Grants
2009-EU-S6-0032 to State Coalitions    07/23/2009   05/01/2009   09/30/2011      156,250
                Legal Assistance for
2009-WL-AX-0032 Victims                09/25/2009   10/01/2009 09/30/2013       1,060,000
2010-MU-AX-0006 State Coalitions       09/22/2010   09/01/2010 09/30/2012         427,628
                                                          Total:              $7,119,055
Source: The Office of Justice Programs’ (OJP) Grant Management System (GMS)

Background

       Created in 1995, the OVW administers financial and technical
assistance to communities across the country that are developing programs,
policies, and practices aimed at ending domestic violence, dating violence,
sexual assault, and stalking. The OVW’s stated mission is to provide federal
leadership in developing the nation’s capacity to reduce violence against
women and administer justice for, and strengthen services to, victims.
Currently, the OVW administers three formula-based and 18 discretionary
grant programs, established under the Violence Against Women Act (VAWA)
and subsequent legislation.

      The OVW’s discretionary grant programs work to support victims and
hold perpetrators accountable through promoting a coordinated community
response. Funding is provided to local, state, and tribal governments;
courts; non-profit-organizations; community-based organizations; secondary

                                            1

schools; institutions of higher education; and state and tribal coalitions. Our
audit includes seven discretionary grants made to the WCADVSA, a
non-profit state coalition.

       The WCADVSA was incorporated as a non-profit in 1987, and works to
provide a state-level voice for local programs, and to strengthen and
energize those programs by providing resources, training, and technical
assistance to ensure that quality public education and services are available
to all victims of domestic violence and sexual assault in Wyoming. The
WCADVSA works in association with 24 member programs, each of which
provides services to victims in their county. The WCADVSA provides
services which include, but are not limited to, the provision of reduced-fee
and pro-bono legal services to victims, the establishment of new graduate
level course material at the University of Wyoming, transitional housing and
emergency assistance for victims, technology upgrades, and training and
technical assistance.

      As shown in Exhibit 1, this audit reviewed seven discretionary grants
made to the WCADVSA. Two of those awards, Grant Numbers
2004-WL-AX-0068 and 2009-WL-AX-0032, were made under the OVW’s
Legal Assistance for Victims (LAV) Grant Program. The LAV program
strengthens the provision of comprehensive legal assistance to victims of
domestic violence, sexual assault, and stalking through direct representation
and victim advocacy which enhances victims' safety and strengthens their
economic autonomy.

      Grant Number 2005-WH-AX-0062 was made under the OVW’s
Transitional Housing Grant Program (Housing). The program allows funding
to States, units of local government, Indian tribes, and other organizations
to carry out programs to provide assistance to minors, adults, and their
dependents who are homeless, or in need of transitional housing or other
housing assistance, as a result of fleeing a situation of domestic violence;
and for whom emergency shelter services or other crisis intervention
services are unavailable or insufficient.

       Funding for Grant Number 2005-WR-AX-0029 was awarded under
OVW’s Rural Grant Program (Rural). The program aims to enhance the
safety of victims of domestic violence, dating violence, sexual assault, and
stalking by supporting projects uniquely designed to address and prevent
these crimes in rural jurisdictions, and to support the provision of victim
services.

     Grant Numbers 2007-MU-AX-0006 and 2010-MU-AX-0006 were made
under the OVW’s Grants to State Sexual Assault and Domestic Violence


                                       2

Coalitions Program (Coalitions). Grant Number 2009-EU-S6-0032 was also
funded under the Coalitions program, but was awarded under the American
Reinvestment and Recovery Act (ARRA). The Coalitions grants generally
support state coalition efforts to coordinate victim services within their state
as well as collaborate with other federal, state, and local entities to respond
to violence against women issues affecting their jurisdictions, and to provide
support to member rape crisis centers through funding, training, and
technical assistance, and public awareness. The stated goal of the ARRA
award was to support the state coalition's efforts in promoting economic
recovery, and preserving and creating jobs that coordinate victim services
and resources within their state.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and grant award
documents. We tested the WCADVSA’s:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grant;

   •	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if WCADVSA was managing grant receipts in
      accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grant;

   •	 budget management and control to determine WCADVSA’s 

      compliance with the costs approved in the grant budget;


   •	 Federal Financial Reports (FFR), Progress Reports, and
      Recovery Act Reports to determine if the required FFR, Progress
      Reports, and Recovery Act Reports were submitted in a timely manner
      and accurately reflect grant activity;

   •	 grant objectives and accomplishments to determine whether the
      WCADVSA is capable of meeting the grant objectives; and

   •	 closeout activity to determine that appropriate action had been
      taken to administratively close grants that had reached their end date.


                                       3

     The findings and recommendations are detailed in the Findings and
Recommendations section of this report. Our audit objectives, scope, and
methodology appear in Appendix I.




                                    4

               FINDINGS AND RECOMMENDATIONS

     We found that the WCADVSA was generally in compliance with
     the following areas: grant drawdowns; budget management and
     control; grant objectives and accomplishments; and closeout
     activity. However, at the time of our audit, we identified internal
     control weaknesses in that multiple individuals accessed the
     WCADVSA accounting system using a shared password, and that
     the WCADVSA does not have a system in place to effectively
     monitor subrecipients. Additionally, we found $817,901 in
     unsupported personnel costs and $250,052 in unsupported
     fringe costs charged to Grant Numbers 2004-WL-AX-0068,
     2005-WH-AX-0062, 2005-WR-AX-0029 and 2007-WR-AX-0006.
     We also identified $570 in unallowable costs related to floral
     arrangements and lawn care charged to Grant Numbers
     2004-WL-AX-0068 and 2005-WR-AX-0029, and an additional
     $14,108 in unsupported direct costs charged to Grant Number
     2005-WH-AX-0062 for transitional housing services. Finally, we
     determined that the Federal Financial Reports (FFR), Recovery
     Act Reports, and Progress Reports reviewed were generally
     submitted in a timely manner; however, FFRs were not
     consistently accurate, and the WCADVSA does not have a
     system in place to ensure that achievements towards goals
     funded by more than one award are identified and reported
     separately on Progress Reports.

Prior Audits

      The Office of Management and Budget (OMB) Circular A-133 requires
that non-Federal entities that expend $500,000 or more per year in Federal
awards have a single audit performed annually. We determined that the
three most recent Single Audits of the WCADVSA were for Fiscal Years (FY)
2008, 2009, and 2010. We reviewed these audit reports and identified the
following issues:

  •	 Wyoming Coalition Against Domestic Violence and Sexual Assault does
     not have adequate internal accounting control due to lack of
     segregation of duties, because of a limited number of employees
     involved in the accounting function.

  •	 Wyoming Coalition Against Domestic Violence and Sexual Assault relies
     on an accounting firm to generate the annual financial statements,
     including footnotes.




                                     5

      As noted in the most recent Single Audit report we reviewed, it may
not be practical for an organization the size of the WCADVSA to maintain an
adequate segregation of duties. However, the auditor noted that the
weakness should be pointed out to the Board of Directors, and that the
Board should continue its close review of financial activity to compensate for
this weakness. We confirmed that the WCADVSA Board of Directors is aware
of the weakness and remain involved in ongoing oversight. We note the
importance of continued board oversight and make no recommendation to
remedy this issue.

      Additionally, the most recent Single Audit report also notes that it may
be cost-prohibitive for an organization the size of the WCADVSA to hire
personnel with the credentials and experience necessary to prepare
Generally Accepted Accounting Principles financial statements.

       We also reviewed a Site Visit report issued in 2007 by the Office of the
Chief Financial Officer, a component of the Office of Justice Programs, Grants
Financial Management Division. The Site Visit covered Grant Numbers
2004-WL-AX-0068, 2005-WH-AX-0062, and 2005-WR-AX-0029. The report
identified the following four issues relevant to all three grants:

         1. The Coalition did not maintain policies and procedures to
            administer Federal Grant Funds.

         2. The Coalition did not utilize time/activity sheets to record time
            worked on Federal grants.

         3. The Coalition did not maintain fixed asset policies and
            procedures, and did not maintain complete inventory records.

         4. The Coalition did not maintain subrecipient monitoring policies
            and procedures to ensure adequate internal controls and
            management of subrecipients receiving federal funds.

      We determined that adequate actions had been taken to close
recommendation numbers one, two, and three. However, at the time of our
audit, we found that the WCADVSA had not established or implemented
subrecipient monitoring policies and procedures. The OJP Financial Guide
requires that recipients develop systems, policies, and procedures to ensure
that subrecipient activities are conducted in accordance with Federal
program and grant requirements, laws, and regulations. We recommend
that the WCADVSA establish and implement policy which will ensure
adequate internal controls and management of sub-recipients receiving
federal funds.



                                       6

Internal Control Environment

      We reviewed the WCADVSA’s internal control environment, including
procurement, receiving, and payment procedures and we reviewed the
payroll system to determine compliance with the terms and conditions of the
grants and to assess risk.

      While on site, we identified an internal control deficiency in that all
accounting system users shared one password. We recommended to
WCADVSA officials that separate passwords be implemented for every
person with access to the accounting system, and confirmed that this
recommendation was implemented during the course of this audit. We make
no further recommendations in this area.

      The fiscal policy currently in place requires that any expenses
submitted to WCADVSA officials for payment are supported by appropriate
documentation and be approved by an authorized signatory of the account.
Additionally, WCADVSA officials stated that packing lists are maintained and
recorded, and that invoices are verified by the individual who received the
materials ordered, and by a WCADVSA approving official prior to the
rendering of payment. Generally, we consider the controls in place to be
minimally adequate for an organization of this size, but stress the need for
continued involvement and oversight by the WCADVSA Board of Directors.

Drawdowns

       To determine the procedures for drawing down grant funds, we
reviewed the award documentation and conducted interviews with WCADVSA
officials. We determined that the grants awarded to the WCADSVA are
reimbursement based, and are therefore subject to the OJP Financial Guide
requirement that draw down requests be timed to ensure that Federal cash
on hand is the minimum needed for disbursements or reimbursements to be
made immediately or within the next 10 days.

      We analyzed each grant in our audit to determine if the total actual
costs recorded in the accounting records were equal to, or in excess of, the
cumulative drawdowns as reported by the OVW. We have included the
results of our analysis below.




                                      7

EXHIBIT 2: ANALYSIS OF DRAWDOWNS

                   TOTAL AMOUNT TOTAL AMOUNT
   GRANT NUMBER       DRAWN       EXPENDED                                 DIFFERENCE 1
 2004-WL-AX-0068   $ 1,939,122  $ 1,939,122                                  $ -
 2005-WH-AX-0062       692,175      692,175                                      -
 2005-WR-AX-0029     2,290,294    2,298,523                                   8,229
 2007-MU-AX-0006       536,055      536,689                                     634
 2009-EU-S6-0032       156,250      156,250                                      -
 2009-WL-AX-0032       522,767      526,492                                   3,725
 2010-MU-AX-0006       236,447      238,508 2                                 2,062
Source: OJP’s Grant Management System; WCADVSA accounting records

    As shown in Exhibit 2, we identified no instance in which the
WCADVSA was cumulatively over drawn.

Grant Expenditures

      To determine if expenditures under the awards were allowable,
reasonable, and in compliance with the terms and conditions of the award,
we reviewed direct cost transactions under the categories of Personnel,
Fringe, Travel, Equipment, Supplies, Contractual, and Other.

     We reviewed grant transactions from the personnel and fringe
categories, and determined that the costs under the grants after January,
2008 were supported and allowable. However, prior to January 2008 the
WCADVSA did not have a method in place to track the time of employees
who were paid under more than one award.

       The OJP Financial Guide requires that staff members paid from more
than one award must complete time and attendance records which clearly
show the time spent on each award by name or code. Staff records prior to
January 1, 2008, did not distinguish between the time spent between grant
programs. Therefore, we were unable to make a determination that
payment made to employees compensated under more than one award was
accurate, and we question those costs as unsupported. Additionally, prior to
January 2007, the WCADVSA utilized a payroll service, and payments
recorded in the general ledger were lump-sum amounts based on a
distribution sheet recorded and maintained by the payroll service. While the
WCADVSA was able to provide the itemized deduction sheets for a portion of
the time period in question, they could not provide breakdowns for the entire
period, nor could they provide supporting documentation for adjusting

      1
          Throughout this report, differences in the total amounts are due to rounding.
      2
          This amount includes expenditures which took place in the ten days immediately
following the drawdown.

                                              8

journal entries which occurred during the same period. As the adjusting
entries appear to transfer funds from the personnel category to the fringe
category, we cannot reduce questioned costs for the time period, as we
cannot determine if the costs had already been reduced through the
unsupported journal entries.

      Because we cannot determine the accuracy of these personnel costs,
we question $817,901 in personnel costs for employees paid under more
than one award as unsupported, and we recommend that the OVW
coordinate with the WCADVSA to remedy the unsupported payroll costs. The
amounts specific to each grant are detailed in Exhibit 3.

             EXHIBIT 3: UNSUPPORTED PERSONNEL COSTS
                GRANT NUMBER  TOTAL AMOUNT QUESTIONED
              2004-WL-AX-0068       $ 506,247
              2005-WH-AX-0062          27,908
              2005-WR-AX-0029         271,121
              2007-MU-AX-0006          12,626
                   Total:           $817,901
             Source: WCADVSA accounting records

     Additionally, we question the $250,052 in corresponding fringe
charges, as shown in Exhibit 4.

             EXHIBIT 4: UNSUPPORTED FRINGE COSTS
                GRANT NUMBER  TOTAL AMOUNT QUESTIONED
              2004-WL-AX-0068       $ 149,818
              2005-WH-AX-0062          10,980
              2005-WR-AX-0029          84,963
              2007-MU-AX-0006           4,291
                   Total:           $250,052
             Source: WCADVSA accounting records

      We recommend that the OVW coordinate with the WCADVSA in order
to remedy the $250,052 in unsupported fringe costs detailed above.

      We identified additional unallowable questioned costs during our
review of direct cost expenditures. Specifically, $462 from Grant Number
2004-WL-AX-0068 and $108 from Grant Number 2005-WR-AX-0029 had
been spent on flower arrangements and lawn care. WCADVSA officials
reported that they were notified by the Office of the Chief Financial Officer in
2006 that this type of expenditure was unallowable, and had not made any
similar purchases after that time. We identified no such expenditures after
2006. The unallowable questioned costs described here are detailed below.


                                       9

         EXHIBIT 5: UNALLOWABLE DIRECT COSTS

                                                  TOTAL AMOUNT
                      EXPENSE                      QUESTIONED
          Grant Number 2004-WL-AX-0068
          Floral arrangements and lawn care         $ 462
          Grant Number 2005-WR-AX-0029
          Floral arrangements and lawn care           108
          Total Unallowable Costs:                  $ 570
         Source: WCADVSA accounting records

     We recommend that the OVW coordinate with the WCADVSA to
remedy the $570 in unallowable direct costs.

      Finally, we identified two direct cost transactions from Grant Number
2005-WH-AX-0062 for which complete supporting documentation could not
be provided. These transactions were payments made to a member
program. These costs are detailed in Exhibit 6 below.

      EXHIBIT 6: ADDITIONAL UNSUPPORTED DIRECT COSTS

                     EXPENSE                  TOTAL AMOUNT QUESTIONED
       Grant Number 2005-WH-AX-0062
       Transitional Housing Services                 $  5,480
       Transitional Housing Services                    8,628
       Total:                                        $ 14,108
      Source: WCADVSA accounting records

     We recommend that the OVW coordinate with the WCADVSA to
remedy the $14,108 in unsupported transitional housing services costs.

Budget Management and Control

      For each grant, the WCADVSA received an approved budget broken
down by categories including Personnel, Fringe Benefits, Travel, Equipment,
Supplies, Construction, Contractual costs, and Other costs. If changes are
subsequently made, the OJP Financial Guide requires that prior approval
from the granting agency be obtained if the changes will result in a change
that exceeds 10 percent of the total award amount. We used the approved
budget or, if the budget had been modified, the most recent Grant
Adjustment Notice containing an approved budget modification to determine
the approved budgeted amounts by category.

       To conduct our analysis, we used the amounts approved by the OVW
in either the financial clearance memorandum or, if the budgeted amounts
had been modified, the most recent Grant Adjustment Notice. We identified
the potential to go over budget in both the Personnel and Other categories

                                      10

for Grant Number 2009-WL-AX-0032, and notified WCADVSA officials.
However, we did not identify any instances in which the WCADVSA had
exceeded the approved budget category in excess of the allowable
10 percent.

Grant Reporting

      We reviewed the Financial Reports, Categorical Assistance Progress
Reports (Progress Reports), and Quarterly Recovery Act Reports to
determine if the required reports had been submitted accurately, and within
the timeframes required by the OJP Financial Guide.

Financial Reporting

      For financial reporting prior to October 1, 2009, the OJP Financial
Guide states that Financial Status Reports (FSRs) should be submitted online
no later than 45 days after the last day of each quarter. The OJP Financial
Guide also states that effective for the quarter beginning October 1, 2009,
instead of using FSRs, grant recipients must report expenditures online using
the Federal Financial Report (FFR) no later than 30 days after the end of
each calendar quarter. We reviewed the four most recent FSRs or FFRs for
each grant, and determined that financial reporting had been submitted in a
timely manner.

      We also reviewed financial reporting for accuracy. According to the
OJP Financial Guide, recipients shall report the actual expenditures and
unliquidated obligations incurred for the reporting period on each financial
report. Also, the award recipients should report program outlays and
revenue on a cash or accrual basis in accordance with their accounting
system. We determined that financial reporting was not consistently
accurate, and have included our detailed analysis below.




                                      11

EXHIBIT 7: FEDERAL FINANCIAL REPORT EXPENDITURE ACCURACY

                                                    CUMULATIVE      CUMULATIVE
                                                      GRANT         DIFFERENCE
                                    CUMULATIVE     EXPENDITURES       BETWEEN
                                      GRANT            PER           REPORTS &
 REPORT        REPORT PERIOD       EXPENDITURES     ACCOUNTING      ACCOUNTING
  NO.         FROM - TO DATES       PER REPORT       RECORDS          RECORDS
Grant No. 2004-WL-AX-0068
   20        04/01/09 - 06/30/09   $1,686,726       $1,684,587      $ (2,139)
   21        07/01/09 - 09/30/09       1,778,781        1,776,637       (2,144)
   22        10/01/09 - 12/31/09       1,862,226        1,859,573       (2,653)
   23        01/01/10 - 03/31/10       1,939,122        1,939,122         -
Grant No. 2005-WH-AX-0062
   22        10/01/10 - 12/31/10   $    553,398     $    553,429    $         31
   23        01/01/11 - 03/31/11        565,833          565,833          -
   24        04/01/11 - 06/30/11        597,916          597,916          -
   25        07/01/11 - 09/30/11        690,763          690,763          -
Grant No. 2005-WR-AX-0029
   22        10/01/10 - 12/31/10   $1,964,300       $1,961,510      $ (2,791)
   23        01/01/11 - 03/31/11       2,031,237        2,032,052          814
   24        04/01/11 - 06/30/11       2,123,878        2,122,725       (1,153)
   25        07/01/11 - 09/30/11       2,231,314        2,230,116       (1,198)
Grant No. 2007-MU-AX-0006
   10        10/01/09 - 12/31/09   $    367,312     $    364,613    $ (2,699)
   11        01/01/10 - 03/31/10        411,112          411,504           392
   12        04/01/10 - 06/30/10        468,431          471,633         3,202
   13        07/01/10 - 09/30/10        536,055          536,077              22
Grant No. 2009-EU-S6-0032
   6         07/01/10 - 09/30/10   $     63,751    $      63,751    $     -
   7         10/01/10 - 12/31/10         90,246           90,194           (52)
   8         01/01/11 - 03/31/11        105,753          105,753          -
   9         04/01/11 - 06/30/11        124,691          124,909           218
Grant No. 2009-WL-AX-0032
   5         10/01/10 - 12/31/10   $    248,656     $    248,604    $      (52)
   6         01/01/11 - 03/31/11        321,005          321,005          -
   7         04/01/11 - 06/30/11        402,844          403,211           367
   8         07/01/11 - 09/30/11        470,948          470,948          -
Grant No. 2010-MU-AX-0006
   2         10/01/10 - 12/31/10   $     55,503    $      55,451    $      (52)
   3         01/01/11 - 03/31/11        105,044          105,044          -
   4         04/01/11 - 06/30/11        155,021          156,633         1,611
   5         07/01/11 - 09/30/11        199,774          199,595         (179)
Source: OJP Grants Management System (GMS) and WCADVSA




                                        12
      As shown above, we determined that financial reports were not
accurate for 19 of the 28 reporting periods in our review; however, we note
that some of these amounts are negligible. We recommend that the OVW
coordinate with the WCADVSA to ensure that future federal financial reports
are submitted accurately.

      The OJP Financial Guide also requires recipients to report summary
information on funds generated by the organization, including program
income. The WCADVSA had program income associated with Grant Number
2007-MU-AX-0006. 3 As shown in Exhibit 8, the program income was
reported inaccurately during one period in our review. However, future
reports and the cumulative total were accurate, and we make no
recommendations in this area.

EXHIBIT 8: FEDERAL FINANCIAL REPORT REVENUE ACCURACY
                                                                          CUMULATIVE
                                                                          DIFFERENCE
                                      CUMULATIVE       CUMULATIVE          BETWEEN
                                        GRANT        GRANT REVENUES       REPORTS &
REPORT         REPORT PERIOD         REVENUES PER    PER ACCOUNTING       ACCOUNTING
 NO.          FROM - TO DATES           REPORT          RECORDS            RECORDS
Grant No. 2007-MU-AX-0006
  10        10/01/09 - 12/31/09         $ 11,291         $ 14,382           $ 3,091
  11        01/01/10 - 03/31/10           14,382           14,382              -
  12        04/01/10 - 06/30/10           14,382           14,382              -
  13        07/01/10 - 09/30/10           14,382           14,382              -
Source: OJP Grants Management System (GMS) and WCADVSA

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
award. To verify the timely submission of Progress Reports, we reviewed
the last four Progress Reports submitted for each grant to determine if the
report had been submitted as required by the OJP Financial Guide. As
shown in Exhibit 9, we determined that one progress report for Grant
Number 2004-WL-AX-0068 had been submitted late; however, since this
report was submitted in 2009 and all reports since have been submitted in a
timely manner, we make no recommendations in this area.




       3
        The WCADVSA also included $210 in program income related to Grant Number
2004-WL-AX-0068. However, WCADVSA officials reported that it was determined by the
OVW that these were administrative fees which do not qualify as program income, and the
$210 was removed on subsequent financial reports.

                                           13

EXHIBIT 9: CATEGORICAL ASSISTANCE PROGRESS REPORT
           HISTORY
                      REPORT PERIOD
   REPORT NO.        FROM - TO DATES         DUE DATE   DATE SUBMITTED   DAYS LATE
Grant No. 2004-WL-AX-0068
        9          07/01/08 - 12/31/08       01/30/09      03/05/09         34
       10          01/01/09 - 06/30/09       07/30/09      07/24/09         0
       11          07/01/09 - 12/31/09       01/30/10      01/22/10         0
       12          01/01/10 - 06/30/10       09/28/10      06/29/10         0
Grant No. 2005-WH-AX-0062
        9          07/01/09 - 12/31/09       01/30/10     01/25/10          0
       10          01/01/10 - 06/30/10       07/30/10     07/28/10          0
       11          07/01/10 - 12/31/10       01/30/11     01/11/11          0
       12          01/01/11 - 06/30/11       07/30/11     07/26/11          0
Grant No. 2005-WR-AX-0029
        9          07/01/09 - 12/31/09       01/30/10      01/27/10         0
       10          01/01/10 - 06/30/10       07/30/10      07/28/10         0
       11          07/01/10 - 12/31/10       01/30/11      01/26/11         0
       12          01/01/11 - 06/30/11       07/30/11      07/28/11         0
Grant No. 2007-MU-AX-0006
        4          01/01/09 - 06/30/09       07/30/09      07/29/09         0
        5          07/01/09 - 12/31/09       01/30/10      01/27/10         0
        6          01/01/10 - 06/30/10       07/30/10      07/29/10         0
        7          07/01/10 - 12/31/10       03/31/11      12/22/10         0
Grant No. 2009-EU-S6-0032
        2          07/01/09 - 12/31/09       01/30/10      01/25/10         0
        3          01/01/10 - 06/30/10       07/30/10      07/29/10         0
        4          07/01/10 - 12/31/10       01/30/11      01/24/11         0
        5          01/01/11 - 06/30/11       07/30/11      07/27/11         0
Grant No. 2009-WL-AX-0068
        1          07/01/09 - 12/31/09       01/30/10      01/29/10         0
        2          01/01/10 - 06/30/10       07/30/10      07/28/10         0
        3          07/01/10 - 12/31/10       01/30/11      01/24/11         0
        4          01/01/11 - 06/30/11       07/30/11      07/28/11         0
Grant No. 2010-MU-AX-0006
        1          07/01/10 - 12/31/10       01/30/11      01/24/11         0
        2          01/01/11 - 06/30/11       07/30/11      07/27/11         0
Source: OJP Grants Management System (GMS)

        We also reviewed progress reports for accuracy. According to the OJP
Financial Guide, the funding recipient agrees to collect data appropriate for
facilitating reporting requirements established by Public Law 103-62 for the
Government Performance and Results Act. The funding recipient will ensure
that valid and auditable source documentation is available to support all data
collected for each performance measure specified in the program solicitation.
In order verify the information in Progress Reports, we selected a sample of
data from the last two Progress Reports submitted for each grant and traced


                                      14

it to supporting documentation maintained by WCADVSA officials. We
determined that the WCADVSA was generally able to provide documentation
to support the claims of achievement on all progress reports in our review.
However, WCADVSA officials stated that they do not have a method of
tracking identical goals which are funded under more than one award.
Specifically, the WCADVSA could not differentiate between the goals and
objectives met through funding from Grant Numbers 2007-MU-AX-0006 and
2009-EU-S6-0032. We recommend that the OVW coordinate with the
WCADVSA to ensure that a system is in place to accurately differentiate and
track goals and objectives for separately funded awards.

Quarterly Recovery Act Reports

       In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.
According to the OJP Financial Guide, Recovery Act Reports are due 10 days
after the close of each quarter. We reviewed the last two Recovery Act
Reports for timeliness and found that the WCADVSA submitted each report
in a timely manner.

      We also reviewed the last two Recovery Act Reports for accuracy.
According to OMB guidance, the reports aim to provide transparency into the
use of these funds. The Recovery Act Reports are required to include the
following information.

  •	 Total amount of funds received and the amount of funds spent on
     projects and activities.

  •	 A list of those projects and activities funded by name, including a
     description, completion status, and estimates on jobs created or
     retained.

  •	 Details on subawards and other payments.




                                     15

      In the Recovery Act Reports, the data pertaining to jobs created and
retained is reported as Full Time Equivalents (FTE). According to OMB
Memorandum 10-08, dated December 18, 2009, the formula for calculating
FTEs is represented as follows:

     TOTAL NUMBER OF HOURS WORKED                 QUARTERLY HOURS
      AND FUNDED BY RECOVERY ACT           ÷       IN A FULL-TIME     =     FTES
       WITHIN REPORTING QUARTER                      SCHEDULE 4


      In order to determine the accuracy of Quarterly Recovery Act Reports
submitted by WCADVSA, we reviewed timesheets for the position approved
in the grant. We totaled the hours that were funded by Grant Number
2009-EU-S6-0032 for the second and third quarter of Calendar Year (CY)
2011 and used the FTE calculation noted previously noted. As shown in
Exhibit 7, we determined that the FTEs supported by WCADVSA timesheets
did not match the FTEs that were reported in the Quarterly Recovery Act
Reports. However, we determined that the differences between the FTEs
supported by timesheets and the FTEs reported to be immaterial.

EXHIBIT 10: ACCURACY OF FTEs REPORTED IN QUARTERLY
            RECOVERY ACT REPORTS FOR GRANT 2009-EU-S6-0032
                                   NUMBER
                                      OF                        TOTAL
         REPORT PERIOD            POSITIONS      TOTAL FTES   SUPPORTED
        FROM - TO DATES            FUNDED         REPORTED      FTES        DIFFERENCE
     4/1/2011 – 6/30/2011             1              .65         .67           (.02)
     7/1/2011 – 9/30/2011             1              .65         .87           (.22)
Source: Recovery.gov and WCADVSA

Program Performance and Accomplishments

      The mission of the grants awarded to the WCADVSA is dependent
upon the grant program. The intent of the Legal Assistance to Victims grant
program (Grant Numbers 2004-WL-AX-0068 and 2009-WL-AX-0032) is to
strengthen the provision of comprehensive legal assistance to victims of
domestic violence, sexual assault and stalking through direct representation
and victim advocacy. The Transitional Housing grant program
(Grant Number 2005-WH-AX-0062) supports programs that provide
assistance to minors, adults, and their dependents who are homeless, or in
need of transitional housing or other housing assistance as the result of
fleeing a situation of domestic violence, and for whom emergency shelter
services or other crisis intervention services or unavailable or insufficient.
The rural grant program (Grant Number 2005-WR-AX-0029) is intended to

      4
          OMB Memorandum 10-08 describes the calculation for Quarterly Hours in a
Full-time Schedule as 520 hours (2,080 hours annually divided by 4 quarters).

                                           16

strengthen the safety of victims of domestic violence, dating violence and
child abuse by creating and enhancing collaborative partnerships between
criminal justice agencies, victim services providers, and community
organizations to respond to crimes of domestic violence, dating violence and
child abuse, and to provide services to the victims of such violence. Finally,
the state coalitions program (Grant Numbers 2007-MU-AX-0006,
2009-EU-S6-0032 and 2010-MU-AX-0006) is intended to support state
coalition efforts to coordinate victim services within the state, and to
collaborate with other federal, state, and local entities to respond to violence
against women issues affecting each individual jurisdiction. As an award
funded under the American Reinvestment and Recovery Act (ARRA), Grant
Number 2009-EU-S6-0032 also specifically aims to support the state
coalition’s efforts in promoting economic recovery, and preserving and
creating jobs that coordinate victim services and resources within their state.

      In order to assess program performance and accomplishments, we
reviewed the agency solicitations and grant documentation, and interviewed
WCADVSA officials to determine the goals and objectives of the program,
and whether those goals and objectives have been or are being
implemented. Each award and subsequent supplement contained multiple
goals and objectives. We selected at least one goal from each original
award, and from each supplement to that award, if applicable, and
requested that the WCADVSA provide evidence demonstrating that the goals
and objectives of the award had been met.

     The WCADVSA was able to provide adequate support for each of our
requests, and demonstrated progress in areas including, but not limited to:

         •	 the expansion of course offerings at the University of Wyoming
            to include classes on domestic violence and the law;

         •	 continued collaboration with attorneys across Wyoming in order
            to provide reduced-fee or pro-bono legal assistance to victims of
            domestic violence and sexual assault;

         •	 the provision of direct assistance in the form of funds used for
            housing and associated services for victims of domestic
            violence;

         •	 the provision of statewide, regional, and local program training
            on issues of domestic violence and sexual assault;

         •	 expand rural service delivery strategies;

         •	 the provision of education, support, and training to sexual
            assault response teams, and;

                                      17

          •   the creation of jobs related to victim services under ARRA.

      As detailed above, the WCADVSA was able to support its claims of
achievement. We found no indication that the WCADVSA would be unable to
meet current or future objectives of grant related programs, and we make
no recommendations in this area.

Closeout Activity

       According to the OJP Financial Guide, award recipients have 90 days
after the end date of the award to close out the award. Also, award
recipients are to provide a cash reconciliation, make a final drawdown
(before 90 days after the award, the final financial report, and the final
Progress Report to the granting agency. As noted in Exhibit 8 we
determined that five of the seven grants reviewed had reached their end
date.

EXHIBIT 11: CLOSEOUT STATUS OF GRANTS AWARDED TO THE
            WYOMING COALITION AGAINST DOMESTIC VIOLENCE
            AND SEXUAL ASSAULT
                                                       REQUIRED      CLOSEOUT STATUS
                                                        PROJECT      PER OJP GRANTS
                           PROJECT       PROJECT       CLOSEOUT         MANAGEMENT
     AWARD NUMBER         START DATE     END DATE        DATE              SYSTEM
                                                                      Final Archived –
    2004-WL-AX-0068       07/01/2004    03/31/2010    06/29/2010
                                                                          Approved
                                                                        Closeout In
    2005-WH-AX-0062       09/01/2005    12/31/2011    03/30/2012
                                                                           Process
                                                                        Closeout In
    2005-WR-AX-0029       08/01/2005    11/30/2011    02/28/2012
                                                                           Process
                                                                      Final Archived –
    2007-MU-AX-0006       09/01/2007    09/30/2010    12/29/2010
                                                                          Approved
                                                                         Closeout in
    2009-EU-S6-0032       05/01/2009    09/30/2011    12/29/2011
                                                                          Process 5
                                                                     Has not reached
    2009-WL-AX-0032       10/01/2009    09/30/2013        N/A
                                                                          end date
                                                                     Has not reached
    2010-MU-AX-0006       09/01/2010    09/30/2012        N/A
                                                                          end date
Source: OJP Grants Management System (GMS)

      Five of the seven grants reviewed had reached their end date at the
time of this audit, and we determined that those grants had been

      5
          According to the grant closeout information obtained from GMS, we noted that
WCAVDSA officials had submitted the final FFR and Progress Report, and did not make any
drawdowns beyond the time period allowed by the OJP Financial Guide. We also noted that
(as of our fieldwork) that the closeout of grant 2009-EU-S6-0032 was pending approval
from OVW.

                                          18

appropriately closed, or were in the process of being closed. We verified
that the final FFR was submitted, the final Progress Report was submitted,
and that final drawdowns were in compliance with the terms and conditions
required by the OJP Financial Guide.

Conclusion

       The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments. We performed detailed transaction testing and examined
the WCADVSA’s accounting records, budget documents, financial and
progress reports, and operating policies and procedures. Our audit results
are listed below.

  •	 All accounting system users shared one password to access the
     system. This deficiency was corrected during the course of this audit.

  •	 The WCADVSA does not have a policy in place to monitor subrecipients
     receiving grant funds.

  •	 Drawdowns were properly deposited, and were generally either equal
     to or cumulatively less than the actual expenditures per WCADVSA’s
     accounting records.

  •	 $817,901 in unsupported personnel costs for Grant Numbers

     2004-WL-AX-0068, 2005-WH-AX-0062, 2005-WR-AX-0029 and

     2007-WR-AX-0006.


  •	 $250,052 in unsupported fringe benefit costs for Grant Numbers

     2004-WL-AX-0068, 2005-WH-AX-0062, 2005-WR-AX-0029 and

     2007-WR-AX-0006.


  •	 $570 in unallowable direct costs for Grant Numbers 2004-WL-AX-0068
     and 2005-WR-AX-0029, which included floral arrangements and lawn
     care.

  •	 $14,108 in unsupported direct costs for Grant Number
     2005-WH-AX-0062, which consisted of transitional housing assistance
     payments made to a member program.

  •	 Budget management was properly tracked and recorded, and budget
     modifications had been appropriately approved by the OVW.



                                    19

      •	 The Federal Financial Reports (FFR) reviewed were generally submitted
         in a timely manner. However, we found that FFRs were not
         consistently accurate.

      •	 The Progress Reports reviewed were generally submitted in a timely
         manner. However, there is no system in place to ensure that goals
         funded by more than one award are identified separately on each
         award’s progress report.

      •	 No indication that the goals and objectives of the grants awarded to
         WCADVSA will not be achieved.

      •	 Grants that had reached their end date had been appropriately closed,
         or were in the process of being closed.

Recommendations

We recommend that the OVW coordinate with the WCADVSA to:

1.	     Ensure that a policy is in place to effectively monitor subrecipients.

2.	     Remedy the $817,901 in unsupported payroll costs.

3.	     Remedy the $250,052 in unsupported fringe costs.

4.	     Remedy the $570 in unallowable direct costs.

5.	     Remedy the $14,108 in unsupported direct costs.

6.	     Ensure that financial reports are submitted accurately.

7.	     Ensure that a policy is in place to effectively separate identical
        accomplishments funded under more than one award on semi-annual
        progress reports.




                                        20

                                                             APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of the audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel and indirect costs; (4) budget
management and control; (5) matching; (6) property management,
(7) program income, (8) financial and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subrecipients. We determined that matching and indirect
costs were not applicable to this audit.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
date of grant 2004-WL-AX-0068 on September 13, 2004 through January
26, 2012, the day our field work concluded. This was an audit of the OVW
grant numbers 2004-WL-AX-0068, 2005-WH-AX-0062,
2005-WR-AX-0029, 2007-MU-AX-0006, 2009-EU-S6-0032,
2009-LW-AX-0032, and 2010-MU-AX-0006 awarded to the Wyoming
Coalition Against Domestic Violence and Sexual Assault (WCADVSA). The
WCADVSA has drawn down a total of $6,373,110 in grant funds through
December 14, 2011.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

      In conducting our audit, we performed sample testing in three areas,
which were grant expenditures (including personnel expenditures), Financial
Reports, and Progress Reports. In this effort, we employed a judgmental
sampling design to obtain broad exposure to numerous facets of the awards
reviewed, such as dollar amounts, expenditure category, or risk. However,
this non-statistical sample design does not allow a projection of the test
results for all grant expenditures or internal controls and procedures.

                                     21

       In addition, we evaluated internal control procedures, performance to
grant objectives, grant drawdowns, program income, and evaluated the
recipient’s monitoring of subrecipients. However, we did not test the
reliability of the financial management system as a whole and reliance on
computer based data was not significant to our objective.




                                     22

                                                                      APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS 6                               AMOUNT                    PAGE

Unsupported Payroll
                                                 $817,901                  9
Unsupported Fringe
                                                 $250,052                  9
Unallowable Direct Costs
                                                 $570                      9
Unsupported Direct Costs
                                                 $14,108                   10
TOTAL QUESTIONED COSTS                           $1,082,632

TOTAL DOLLAR-RELATED FINDINGS                    $1,082,632




      6
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation

                                           23

                                                                                                                                                     APPENDIX III

WYOMING COALITION AGAINST DOMESTIC VIOLENCE AND SEXUAL ASSAULT
               RESPONSE TO DRAFT AUDIT REPORT



            Mumbti P[QIlr:em.S,
               AlbRuy Counly
                   S, A .F.E. Proj.."
                                                                                                                  •
               HlgH"m
    C.A.R.E-S. 1"". (6isi, & RoCo"..1                'UI~e~ri~
          Emo'll"""Y Servi«-s)

              (;.. " ,~~ olt   C"""'Y              'Z)~ ~~ ad Se:teUtC ri44aedt
     G.A.R.F, «(;III<Ko AOO,. Rcfu g<>
               FounoiariOJt)

           CaTbon Coun,y                          'June 8, 2012
    C . O .V.I ~
           (C. oI>o" County C ~ i ......
    Organiwl lo Ste Violence End<d)
                                                  U.S. Department of Justice
              Con'_C .... "ly                     Office of the Inspector General
         Co:on-.e. County C""lil;oo
               Atoi;"'1 Violonce                  David M. Shecren, Rcgional Audit Manager
              C<OOk Counly
                                                  Denver Regional Audit Ofiiee
      C rook q>unly fl ",ily V",knce              H20 Lincol n, Suite 1500
         & Sexuol A... ull s<,,·ic ..
                                                  Denver, CO, 80203
               }'T't",onl Coun ly
               fre monl Alii, ,,,,,,
                                                   Dear Mr. Sheercn.
                   Go.ltt" C"o"ly
                   Go.lIt" County
               TMk F""", FVr.:;A '.                Please find below and attached the Wyoming Coalition Against Domestic
             lIo! S,.,-I"p Co",,!y
                                                   Violence and Sexual Assault's response to the Offiee of the Inspector General
                   H.O. P.F~,...,.n.y              Draft Audit Report recommendations.
               Jo~"'''' Coo ",y
             f omily Cti, i. CCOl'cr               1. Kn~ure that a policy is in place to effectively monitor sub~rccipie n ls,
               La .. ",!. CO""I)'                     TIIC WCADVSA Fiscall'olicies and Procedures havc been revised iri bo14 as
           So.Rhou.. So"",1Ao$aull
                 Se"'"",, Inc.                        follows to mor,e effectively monitor sub-recipients.
                Lln",h. C"'''''Y
               1bc Tu",i"i POint                            GRANTS AND CONTRACTS
                   N,,..,,,. County
                    o                                       Accounting procedures, chart~ of accounts, etc., will provide for
                   SeI ( lIelp Cen'e,                       identifying receipts and expenditures ofWCADVSA funds scpanttcly for
             Nlobrar. Co"""y                                each award o r grant. The accounting system will provide for
            Helpmale Cri,., Cen'c r                       . accumulating arid recording expenditurcs by award or grant as shown in
                     l'a T~   County                         the approved budget. Rcports will be filed on a li,mely basis wilh the grant
           CriU. lnl<n"<'''ion !kr.icc:>
                                                             agencies. The Executive Director andlor Associatc Director will review
                     P IBIt.Coun'y                           expenditures charged to direct and indirect costs in accordance with the
                     P"*,,, SAF!!
                                                           . applil.:able grant agreements. Appropriate personnel will be responsible to
             Sbor W." Cou"")'
        Ad. oc>. y & R• .."""" C"n'«
                                                             review and ensure the provision of services in accordance with the
                                                              applicable gtant agreements. TIle WCADVSA will follow the financial
                   Subl.Uc Co"nly
               SA.r.V. Ta . ~ Fore.                           guidelines and procedUl'es as may ~e set forth by grantors.
              Swft l,,"'t.r eou ... y
               Y.W.C.A.S.A,i;. II.                          Indirect costs will be allocated based on a reasonable al!oeation plan. The
   - - - -(Support '&          sore 110""") - -             WCADVS-Ii. wil! provide reasonaole assurance Ui.afCo       MislClirtre'atment -~---               I
                     'felon Co"nt y                         is applied in distribution of l.:harges of direct and indirect costs to
          Communi'y So(OIy          NC1\\'or~
                                                            applicable award or grants.                                    .
              . mnta Coo"ly
          S.A.F.V. (Sex., ' A... ull
     & p"",ily V;"le.-.ce) To,k 1'0= I....                  The Executive Din:ctor has the authority to obligate the WCAD VSA to
                   W",ha~l.  Counly                         ,new grants ami contracts under $ \ 00,000 or continuation grants at a
           Vi .. ,.... o(Vio'. n<c Ce.oICT
                                                             similar funding level to the prior year.
             Weslon Counl)'
        POCUS (F"uoo"'t iOO'l ofCari n ~ .
          Und<"tanding & S. ,,,io ...)                              P.O. D",,~3(j, 110 F,. G~rH~1d S•. Suh218' I...... 'nl., W\, 82013
                                                                  Ph..". 3()7. 7~~.5 .ut1 ' Fax 307_1S5.s.182 • ' .<pl Pt"<\l«t JD7·755·0,",2
              WRJK S........ Shield
                                                                         .,;.."",11: 1"r"(J ..-rollllnJ:d,·.... org , " 'W\\'.\\'yoJnlll&d,.... o~
                 Join' Trib<'
                Ag" n,! OVISA




                                                                                      24

             As appropriate and as set fort h hy grantors, thc WCADVSA \vill establish and implement
             sub-award/grantee monitoring procedures to ensure adequate cont.rol of funds. As
             required, the procedurcs will include:
                    Submission of sub-award/grantee and.review of financial and programmatic
                    reports.
                    PeriodiC on-site monitoring of sub-award/grantee programmatic and financial
                    operations as needed.
                    Cash management and disbursements practices.
                             Funds will be disbursed to eligible sub-grantees per the applicable
                             fimmcial guidelines amll"egulations of the grantor and purpose of tile
                             funds.
                             ~umb will be provided to sub-grantees on a reimbursement basis.
                            Documentation n:quired for reimbursement includes:
                                Copy of receip.ts
                                ~ignature of payee
                                Signature of ~:xecutive Director
                                Purpose of expense .
             •.     Monitoring of sub-award/grantees audit reports.

      2. Remedy the SSl?,9oi in unsupported payroll costs.
         The WCAQVSA Fisc~l Policies and Procedures have been revised in bold as follows to more
         accurately support payroll and fringe bcnefit costs. In addition, please find a copy of the
         Personnel Time and Activity Report attached as Appendix A currently in u~c by WCADVSA.
         employees.

             PAYROLL.
             The WCADVSA ~i ll operate on a bi-weekly pay calendar.

            All new employees must be approved by the Executive Director, who is the only
             employee authoriied to set rates of pay. The Board of DirectorS will hire the Executive
             Dire.ctor and set the Director's rate of pay. Appropriate employment forms must be
             completed ·upon hire and submitted to t~e Executive Director for, inclusion in persolU1ei
             file .

            . All salary increases mllst be approved by .the Executive Director and noted in inc
            . personnel file. The Executiv.e Director's salary is to be approved by the Board of
              Directors.

- -- - -All-employees must-be provided ·an-employee handboobmd must-acknnwledgeTeading'---~
        and understanding that handbook.                       . .

            Personnel Time and Activity Reports will be used for attendm)ce, allocation of
            employee's ti me per activity to appropriate progrll.ms and for tracking paid time off
            benefits. Time sheets witl be signed by employees and submitted to the respective
            supervisor for approval. The Executive Director's lime sheets will be approved·by the
            Associate Director or Board ofQit:ectors.




                                                    25

        Personnel T imc and Activity Repol1s are due by \0:00 a.m. on the MondllY fo llowing
        the end of 11 pay period . 'Inc Executive Director and/or the immediate supervisor   will
        check the time sheets for accurate compilations of payroll period hours, overtime
        approval from supervisor, vacation and sick time requests and approval, unapproved
        erasures and alterations, and wi ll verify pay rates against the al>proved pay rate schedule.
        The payroll will be subj ~et to the fi nal approval of lhe Executive Director or her
        designee.

        'nle Fiscal Officer will process payroll and return timesheets to the Executive Director.

        Employee Personnel Time and Activity Repo rts will be maintained in sufficient detail
        tu allow for allocations of payroll costs to spe. ific grants and other'non-gnmt funded
                                                        c
      . activities including lobbying.       .

        The payroll checks Or direct bank deposit will be processed in house by. the Fiscal
        Officer. The Fiscal Officer will also process payroll tax calculations and other
       .dcsignations as needed and mandated. Any errors or omissions should be brought to the
        attention of the Executive Director and Fiscal Officer immediately for reconciliation.
        The Fiscal Officer will review and reconcile gross and net pay amounts as shown on tax
        returns to total payroll on the payroll register and general ledger.                   .

       The Fiscal Officer will place payroll checks and direct deposIt receipts in envelopes and
       distribute them to the'employecs on the appropriate day. Checks not dis tributed will be
       placed in the personnel file ofthe employee. Unclaimed or undeliwrahle payroll checks
       will hc raided after six (6) months.                      .

       lbe total W-2 wages for the year will be reconciled to the general ledger and payroll
       register. wages paid and olher payroll reports by the Fiscal Officer.
            .               "




       Payments for deductions from employees' checks such as health insurance, life insurance,
       403(8), etc. are prepared by the Fiscal Officer~and signed by the ExeclJtive Direc~or .

. 3. Remedy the S250,052 in unsupported fringe costs.
    Refer \0 number tw.o.       .

4. Remedy the $570 in unallOWAble direct costs.
   .The WCADVSA concurs that $570 noted as unallowablc direct costs is correct.

5. Remedy the 51 4,108 in unsupported direct costs.
   Two checks comprise the $14,108 in unsupported dim:t costs; one for $5,480 (check 9130)
   and the other for $8,628 (cJieek 13662). The WCADVSA has valid documentation for
   $5,365 of the $5,480 check. In addition, the WCADVSA has valid documentation for $8,471
   of tile $8,628 check. Please refer to the attached documentation in Appendix 13 and
   Appendix C. The WCADVSA concurs that the balance of$I,057 arc unallow,able direct
   costs. ,




                                                26

  6. E nsure that finaneiall'eports Mre s ubmitted. ac'c urately.
     The WCADVSA Fiscal Policies and Procctlures have been revised in bold as follows to more
     accurately support payroll and fringe bencfit costs.

     RESPONSIBILITIES AND REPORTS
     The Board of Djrectors is responsible for the administration of funds for the WCADVSA.

     The Treasurer of the Board provides oversight of quftltcrly fiscai administration through the
     review of finandal statements, balance sheets, and bank statement reconciliations, Quarterly
     statements of all receipts and ex.penditures are reviewed and approved by the Board members
     at regular board meetings .• The Executive Director is the primary fisca l admil'\istrator of
     yeady budgets approved by the Board of Directors and provi9cs nccessary reports to include:·
             Fimmcilll stlltements
             Budget proposals submitted to funding agencies
             Year-end audit reP9rts
             Other reports of i!- fiscal nature necessary to inform the BOllrd of fund blllanccs as.thcy
             are reported or upon requ~st.

      The Fiscal Officer, Executive Director, Associate Director or'contracted professionals will
      prepare on a monthly basis the following reports:
    .    • Invoices to funding source
         • Bank reconciliation of all accounts
         • Financial report of expenses/revenues
         • Grant financial slaws reports as applicable '
     The Fiscal Officer, Exccutive D irector, Associate Director or contracted professionals will
     prepare 011 a quarterly basis the following reports:
        •. 941
        • State Unemploymellt
            Workers Compensation
        • Grant financial status report:'! as appli.cublc
    . The Fiscal Officer, Executive Director, Associate Direc"lor or contracted professionals will
      prepare 011 an atmual basis the following reports:
         • IRS Form 990
         • W-3 Transmittal Fonn                                                                            .

         • Annual audi t by outside CPA finn
         • Grant closeout reports as applicable                                                            .
-~-~ . ~---                        ----------~---------




      All reports ·are to be s ubmitted accurately and oll-t!me. Ira report is found to ·be
  inaccurate,
    , the necessary s~eps should be tal{c~ pel' grantor requirements to reconcile the
  inacc uracies.

  7. Ensure that a policy is in place to effectively separate idcntical accomplishments funded
     .u nder mOl'e than one ,a ward on semi-anllual progress reports.




                                                 27

Attached a:; Appendix 0 is a new policy implemented in Jllnuary 2012, and II corrc:;ponding
e-mail, provide clarification to WCADVSA staff around properly reporting accomplishments.     .
on semi-annual progress reports.


Please let me know if additional clarification is necessary. Thank you again for yoor work
with the WCADVSA throughout the OIG audit process.                             .


Sincerely,


                                                                             ,
Jennifer Zenor
WCADVSA Executive Director




                                          28

                                                                                                APPENDIX IV

              OFFICE ON VIOLENCE AGAINST WOMEN
               RESPONSE TO DRAFT AUDIT REPORT

                                                        u.s. Department of JUI;Iice
                                                       Office on Vio lence Agai nst Women




                                                        W".I, ;~gl"", D .C. 2QSJO

                                                       July 12.2012



M E M Q RA NIllJM


TO:                           David M. Shceren
                              Regional Audit Manager
                              Denver Regional Audit Office

FROM:                         Bea Hanson     ~ Lt ...­
                              Acting Director- \  Yf
                                                   IV-""
                              Office on Violence Against Women

                               Rodney Samuels
                               Audit Liaison
                               Offict: on Violence Against Women

SUBJECT:                       Response to the Draft Audit Report, Wyoming Coalition Agai nst
                               Domestic Violt:nct: and Sexual Assault (WCADVSA) - Draft
                               Audit Report


This memorandum is in response to your correspondt:nce dated May 16, 2012 transmitting thc
above draft Follow-Up and Rt:view Investigation report for the WCADVSA. We consider thc
subject report resolved and request writtcn acceptance ofthi~ action from your office.

 The report contains scven recommendations, S 1,082,061 in unsupported costs and $570 in
 unallowable cost. T he following is our analysis of the audit recommendations.

      1) Ens ure that a policy is in place to effecti vely monitor sub-rccipients.

         We agrt:e with this recommendation. We will coordinate with the WCAOVSA to obtain
         a copy of procedures to ensure an effective policy is implemented to monitor sub­
         recipients.

      2) Remed y the S81 7, 901 in unsuppo rted payroll costs.

          We agree wit h the recommendation. We will coordinate with WCADVSA to remedy
          $817. 901 in unsupported payroll costs idcntified in your report.




                                                29

     3) Remedy the $250,052 in unsupported fringe costs.

        We agree with the recommendation. We will coordinate with the WCADVSA to remedy
        $250,052 in unsupported fringe costs identified in your report.

     4) Remedy the $570 in unallowable direct cost.

        We agree with the recommendation. We will coordinale with the WCADVSA to remedy
        $570 in unallowable direct costs identified in your report.

     5) Remedy the $14,108 in unsnpported direct costs.

        We agree with the recommendation. We will coordinate with the WCADVSA to remedy
        $14, I 08 in unsupported direct costs identified in your report.

     6) Ensure that financial reports are submitted accurately.

        We agree with the recommendation. We will coordinate with WCADVSA to obtain a
        copy of procedures to ensure that financial reports are submitted accurately.

     7) Ensure that a policy is in place to effectively separate identical accomplishments
        funded under more than one award on semi-annual progress reports.

        We agree with the recommendation. We will coordinate with WCADVSA to obtain a
        copy of procedures implemented to ensure effective separation of identical
        accomplishments funded under more than one award.

We appreciate the opportunity to review and comment on the draft report. rfyou have any
questions or require additional information, please contact Rodney Samuels of my staff at
(202) 514-9820.

cc    Angela Wood
      Accounting Officer
      Office on Violence Against Women (OVW)

      Louise M. Dubamel, Ph.D.
      Acting Assistant Director
      Audit Liaison Group
      Justice Management Division

      Neelam Patel
      Program Specialist
      Office on Violence Against Women




                                               2




                                             30

                                                             APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to the WCADVSA and the
OVW. The responses are incorporated into Appendixes III and IV of this
final report. In their response, WCADVSA officials provided additional
documentation for transactions relating to recommendation 5 of this report.
After reviewing these documents, we adjusted the questioned cost amount
in our recommendation. The following provides the OIG analysis of the
response and summary of actions necessary to close the report.

1.	   Resolved. The OVW concurred with our recommendation to ensure
      that a policy is in place to effectively monitor subrecipients. The OVW
      stated in its response that it will coordinate with the WCADVSA to
      ensure that an effective policy is implemented.

      This recommendation can be closed when we receive evidence that the
      OVW had coordinated with the WCADVSA to ensure that an effective
      policy to monitor subrecipients has been implemented.

2.	   Resolved. The OVW concurred with our recommendation to remedy
      the $817,901 in unsupported payroll costs. The OWV stated in its
      response that it will coordinate with the WCADVSA to remedy the
      unsupported payroll costs.

      This recommendation can be closed when we receive evidence that the
      OVW had coordinated with the WCADVSA to remedy the $817,901 in
      unsupported payroll costs.

3.	   Resolved. The OVW concurred with our recommendation to remedy
      the $250,052 in unsupported fringe costs. The OVW stated in its
      response that it will coordinate with the WCADVSA to remedy the
      unsupported fringe costs.




                                     31

       This recommendation can be closed when we receive evidence that the
       OVW has coordinated with the WCADVSA to remedy the $250,052 in
       unsupported fringe costs.

4. 	   Resolved. In its response to the draft report, the WCADVSA
       conceded that the $570 in direct costs identified as unallowable were
       indeed unallowable expenditures. The OVW also concurred with our
       recommendation.

       This recommendation can be closed when we receive evidence that the
       OVW has coordinated with the WCADVSA to remedy the $570 in
       unallowable direct costs.

5. 	   Resolved. In their response to the draft report, WCADVSA officials
       concurred that a portion of the costs identified in our report as
       unsupported were unallowable. Additionally, the WCADVSA response
       included documentation to support the remainder of costs questioned.
       After a thorough review of the documentation provided, we
       determined that $13,051 of the $14,108 had been adequately
       supported, and that the remaining $1,057 were unallowable.

       The OVW agreed with our recommendation to remedy the unsupported
       costs, and we have reduced the total amount questioned as detailed
       above. This recommendation can be closed when we receive evidence
       that the OVW has coordinated with the WCADVSA to remedy the
       remaining $1,057 in unallowable questioned costs.

6. 	   Resolved. The OVW agreed with our recommendation, and stated
       that it would coordinate with the WCADVSA to ensure that future
       financial reports are submitted accurately.

       This recommendation can be closed when we receive evidence that the
       OVW has coordinated with the WCADVSA to implement policies and
       procedures to ensure that future financial reports are submitted
       accurately.

7. 	   Resolved. The OVW agreed with our recommendation, and stated
       that it would coordinate with the WCADVSA to ensure that a policy is

                                      32

in place to effectively separate identical accomplishments under more
than one award on semi-annual progress reports.

This recommendation can be closed when we receive evidence that the
OVW has coordinated with the WCADVSA to ensure that future semi­
annual progress reports are submitted accurately and without
duplication.




                               33

